No. 19-847

In The Supreme Court of the United States
JONATHAN REISMAN,
Petitioner,
V.

ASSOCIATED FACULTIES OF THE UNIVERSITY OF MAINE,
et al.,
Respondents.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the First Circuit
BRIEF OF PUBLIC POLICY RESEARCH
ORGANIZATIONS AND ADVOCACY GROUPS
AS AMICI CURIAE IN SUPPORT OF
PETITIONER
ERIK S. JAFFE
(Counsel of Record)
GENE C. SCHAERR
JOSHUA J. PRINCE
SCHAERR|JAFFE LLP
1717 K Street, NW, Suite 900
Washington, DC 20006
(202) 787-1060
ejaffe@schaerr-jaffe.com
Counsel for Amici Curiae

QUESTION PRESENTED
Three times in recent years, this Court has recognized that schemes compelling public-sector employees to associate with labor unions impose a “significant impingement” on those employees’ First
Amendment rights. Knox v. Serv. Employees Int’l
Union, Local 1000, 567 U.S. 298, 310–11 (2012); Harris v. Quinn, 134 S. Ct. 2618, 2639 (2014); Janus v.
American Fed’n of State, Cty., & Mun. Employees,
Council 31, 138 S. Ct. 2448, 2483 (2018). The most
recent of those decisions, Janus, likewise recognized
that a state’s appointment of a labor union to speak
for its employees as their exclusive representative
was “itself a significant impingement on associational
freedoms that would not be tolerated in other contexts.” 138 S. Ct. at 2478. The lower courts, however,
have refused to subject exclusive representation
schemes to any degree of constitutional scrutiny, on
the mistaken view that this Court approved such arrangements in Minnesota State Board for Community
Colleges v. Knight, 465 U.S. 271 (1984). The question
presented is therefore:
Whether it violates the First Amendment to designate a labor union to represent and speak for publicsector employees who object to its advocacy on their
behalf.

ii
TABLE OF CONTENTS
Question Presented ...................................................... i
Table of Contents......................................................... ii
Table of Authorities .................................................... iii
Interest of Amici Curiae and
Rule 29.6 Statement............................................... 1
Introduction and Summary of Argument ................... 5
Argument ..................................................................... 8
I. State-Compelled Exclusive Representation
Impinges on the First Amendment Rights
of Objecting Public Employees. ............................. 8
A. Compelled-representation laws impinge
on the free speech rights of objecting
public employees. .............................................. 8
B. Compelled-representation laws impinge
on the associational rights of objecting
public employees. ............................................ 10
II. Public-sector labor law should not be
exempt from these fundamental First
Amendment principles. ........................................ 12
Conclusion.................................................................. 15

iii
TABLE OF AUTHORITIES
Cases
Abood v. Detroit Board of Education,
431 U.S. 209 (1977) .................................. 12, 13, 14
Boy Scouts of Am. v. Dale,
530 U.S. 640 (2000) .............................................. 11
California Democratic Party v. Jones,
530 U.S. 567 (2000) .............................................. 10
Christian Legal Soc. Chapter of the
Univ. of Cal., Hastings Coll. of the
Law v. Martinez, 561 U.S. 661 (2010) ................. 11
Harris v. Quinn,
134 S. Ct. 2618 (2014) ............................................. i
Janus v. American Fed’n of State,
Cty., & Mun. Employees, Council
31, 138 S. Ct. 2448 (2018) ............................. passim
Knox v. Serv. Employees Int’l Union,
Local 1000, 567 U.S. 298 (2012) ................. i, 11, 15
Minnesota State Board for
Community Colleges v. Knight,
465 U.S. 271 (1984) ............................................. i, 7
Pacific Gas & Elec. Co. v. Public Util.
Comm’n of Cal., 475 U.S. 1 (1986) ...................... 12
Riley v. National Fed’n of Blind of
N.C., Inc., 487 U.S. 781 (1988) ........................ 9, 14
Roberts v. United States Jaycees,
468 U.S. 609 (1984) ........................................ 10, 11
West Virginia Bd. of Educ. v. Barnette,
319 U.S. 624 (1943) ................................................ 9

iv
Wooley v. Maynard, 430 U.S. 705 (1977) .................. 9
Other Authorities
A Bill for Establishing Religious Freedom,
in 2 Papers of Thomas Jefferson
(J. Boyd ed. 1950) ................................................. 10
S.Ct. R. 10 .................................................................. 7

INTEREST OF AMICI CURIAE
AND RULE 29.6 STATEMENT1
Amici curiae are public policy research organizations and advocacy groups that seek to promote limited and effective government and individual freedom. Amici have extensive experience with issues involving public unions and education reform and believe that unions should be supported through employees’ free choice rather than government coercion.
Amici have appeared in courts across the country—
including this Court—in important cases involving
public unions. See, e.g., Friedrichs v. California
Teachers Assoc., No. 14-915.
Amici have a strong interest in this case, which
implicates matters of substantial public concern, including public-sector wages and the governance of
public institutions.
None of the amici is publicly traded or has any
parent corporations, and no publicly traded corporation owns 10% or more of any of the amici. The following organizations join as amici on this brief:
The Maine Heritage Policy Center (MHPC) is a
501(c)(3) non-profit, tax-exempt educational organization dedicated to the promotion of public policy solutions that will free people from dependency, create

No counsel for a party authored this brief in whole or in
part, nor did any person or entity, other than amici, their members, or their counsel, make a monetary contribution intended to
fund the preparation or submission of this brief. Counsel for the
parties were notified of amici’s intent to file this brief more than
10 days prior to the filing deadline and have consented to the filing of this brief.
1

2
lasting prosperity, and redefine the role of government in the lives of Maine citizens. MHPC conducts
detailed and timely research, develops public policy
solutions, educates the public, and engages with legislators to foster a greater sense of liberty in Maine.
Alaska Policy Forum is a nonpartisan, nonprofit, tax-exempt organization dedicated to empowering and educating Alaskans and policymakers by
promoting policies that grow freedom for all. Labor
arrangements such as exclusive representation and
mandatory membership in any organization, such as
a bar association, are prohibitions on First Amendment rights and impinge upon the freedom of Americans.
Americans for Tax Reform (ATR) is an advocacy organization that represents the interests of the
American taxpayers at the federal, state, and local
levels. ATR believes in a system in which taxes are
simpler, flatter, more visible, and lower than they are
today. ATR educates citizens and government officials about sound tax policies to further these goals.
ATR is a non-profit, tax-exempt organization under
Section 501(c)(4) of the Internal Revenue Code (IRC).
The California Policy Center (CPC) is a nonpartisan education and research organization dedicated to advancing the principles of economic and individual freedom. CPC’s primary areas of focus are
education, labor, government transparency and public finance. Our research has led us to conclude that
the exclusive-representation regime undermines education because it discourages talented, prospective
educators from effectively participating in discussions
with the University regarding important public is-

3
sues relating to hiring and governance and block educational reform. That obstacle reduces the quality of
education provided to California’s children. Based in
Tustin, California, CPC is a nonprofit, tax-exempt organization under Section 501(c)(3) of the IRS code.
The Center for Worker Freedom (CWF) is a
nonprofit, educational organization dedicated to educating the public about the causes and consequences
of unionization. CWF supports freedom of association
and believes all workers should have the right to decide for themselves whether they belong to a labor
organization. CWF is a tax-exempt educational organization under Section 501(c)(3) of the IRC.
The Empire Center for Public Policy, Inc., is
an independent, non-partisan, not-for-profit think
tank based in Albany, New York. The Center’s mission is to make New York a better place to live and
work by promoting public policy reforms grounded in
free-market principles, personal responsibility, and
the ideals of effective and accountable government.
The James Madison Institute is a Florida-based
research and educational organization that advocates
for policies consistent with the framework set forth in
the U.S. Constitution and such timeless ideals as limited government, economic freedom, federalism, and
individual liberty coupled with individual responsibility. The Institute is a non-profit, tax exempt organization under Section 501(c)(3) of the IRC based in
Tallahassee, Florida.
The John Locke Foundation is a NorthCarolina-based 501(c)(3) organization, taking John
Locke’s vision as its guide and the North Carolina
Constitution as its foundation to plant the flag for

4
freedom—including workplace freedom—and nurture
its growth in North Carolina. Over three decades it
has educated policymakers and informed the public
debate with reason and research. The Foundation’s
spirited defense of economic liberty and personal
freedom has established it as North Carolina’s premier free-market public policy think tank.
The Mackinac Center for Public Policy is a
Michigan-based, nonpartisan research and educational institute advancing policies fostering free markets, limited government, personal responsibility,
and respect for private property. The Center is a
501(c)(3) organization founded in 1987. The Mackinac
Center has played a prominent role in studying and
litigating issues related to mandatory collective bargaining laws.
The Mississippi Justice Institute (MJI) is a
nonprofit, public interest law firm and the legal arm
of the Mississippi Center for Public Policy (MCPP),
an independent, nonprofit, public policy organization
dedicated to advancing the principles of limited government, free markets, strong families, individual
liberty, and personal responsibility. MJI represents
Mississippians whose state or federal constitutional
rights have been threatened by government actions.
MJI’s activities include direct litigation on behalf of
individuals, intervening in cases important to public
policy, participating in regulatory and rulemaking
proceedings, and filing amicus briefs to offer unique
perspectives on significant legal matters in Mississippi and federal courts.
The Nevada Policy Research Institute is a
nonpartisan education and research organization

5
dedicated to advancing the principles of economic and
individual freedom. The Institute’s primary areas of
focus are education, labor, government transparency
and fiscal policy. The challenged exclusiverepresentation scheme discourages talented, prospective educators who prefer to convey their own views
regarding University employment and governance
from entering and effectively participating in the profession, thus reducing the quality of education provided to Nevada children. NPRI is a non-profit, tax
exempt organization under Section 501(c)(3) of the
IRC based in Las Vegas, Nevada.
The Pelican Institute for Public Policy is a
non-profit and nonpartisan research and educational
organization, and the leading voice for free markets
in Louisiana. The Institute's mission is to conduct
scholarly research and analysis that advances sound
policies based on free enterprise, individual liberty,
and constitutionally limited government. The Institute has an interest in protecting Louisiana citizens'
First Amendment rights.
The Washington Policy Center is an independent, nonprofit 501(c)(3) research and educational organization dedicated to improving the lives of the
people of Washington state through accurate, highquality research and the advancement of policy ideas
that promote the public interest.
INTRODUCTION AND
SUMMARY OF ARGUMENT
Petitioner Jonathan Reisman is a professor of economics and public policy at the University of Maine
at Machias, a public university that is part of the

6
University of Maine system. Pet. 5. Under Maine
law he is required to accept Respondent Associated
Faculties of the University of Maine (the “Union”) as
his sole and exclusive bargaining agent, entitled to
speak and contract on his behalf, despite his disagreement with the Union’s positions and advocacy on
numerous issues. Pet. 5-7.
As a practical matter, the Union is the sole mouthpiece speaking on behalf of all University employees
regarding nearly all aspects of faculty employment
including “wages, benefits, grievances, the school
year, workload, personnel files, office hours, severance, retirement, leaves of absence, professional development,” and even has the right to appear in all
grievance proceedings and the exclusive right to appeal grievances and invoke arbitration, even for nonmembers. Pet. 5-6. In the context of public employment, it is undisputed that these topics are “matters
of substantial public concern.” Janus v. American
Fed’n of State, Cty., & Mun. Employees, Council 31,
138 S. Ct. 2448, 2460 (2018).
By appointing the Union as Petitioner’s exclusive
representative in this manner, state law compels his
speech. Petitioner has no right to negotiate directly
with his employer regarding the terms and conditions
of his employment and must suffer the union to speak
on his behalf in numerous settings that influence significant aspects of university policy.
If Petitioner agreed with the Union, there might be
less of a problem here; however, Petitioner wants
nothing to do with the Union and expressly resigned
his membership in the union based on his disagreement with their positions and advocacy. Pet. 6. But

7
despite such unequivocal efforts to dissociate himself
from the Union and its views, the State nonetheless
compels him to accept the union as his sole and exclusive agent regarding a wide range of issues of public importance. As a practical and legal matter, state
law forces Petitioner to adopt the words the Union
puts in his mouth as if they were his own.
The question presented here is whether Respondents’ compelled-representation regime violates Petitioner’s free speech and associational rights under
the First Amendment.
Amici agree with Petitioner that this is a “question of profound importance that has never received
careful attention by this Court.” Pet. 8. Amici further agree that the court below and others commit
grievous error by failing to apply “any degree of constitutional scrutiny” to compelled association with
unions designated as exclusive bargaining agents for
public employees. Pet. 1. Because lower courts erroneously continue to apply Minnesota State Board for
Community Colleges v. Knight, 465 U.S. 271 (1984),
to deny any level of First Amendment scrutiny to
such compelled speech and association, even in the
wake of this Court’s decision in Janus, 138 S. Ct.
2448, only this Court can cure the problem by applying the principles of Janus to such schemes in general and rejecting the erroneously permissive reading
of Knight applied below. The Petition thus presents
“an important question of federal law that has not
been, but should be, settled by this Court.” S. Ct. R.
10(c).
Amici write separately to underscore a point the
Court made in Janus—that a state requirement that

8
a labor union “serve as exclusive bargaining agent for
its employees” is “a significant impingement on [First
Amendment] freedoms that would not be tolerated in
other contexts.” 138 S. Ct. at 2478.
ARGUMENT
I. State-Compelled Exclusive Representation
Impinges on the First Amendment Rights of
Objecting Public Employees.
As explained in the Petition, Maine’s compelledrepresentation regime forces Petitioner to associate
with the Union and to accept the Union’s advocacy as
his own even though he objects to the Union and opposes its speech on his behalf. This Court recently
has acknowledged that this type of regime “substantially restricts the rights of individual employees.
Among other things, this designation means that individual employees may not be represented by any
agent other than the designated union; nor may individual employees negotiate directly with their employer.” Janus, 138 S. Ct. at 2460.
The lower courts that have addressed the issue
thus far have refused to acknowledge this impingement of free speech and associational rights. Amici
thus outline the incompatibility of compelledrepresentation regimes with fundamental First
Amendment principles.
A. Compelled-representation laws impinge on the free speech rights of objecting public employees.
As this Court has “held time and again,” the freedom of speech “‘includes both the right to speak freely

9
and the right to refrain from speaking at all.’” Janus,
138 S. Ct. at 2463 (quoting Wooley v. Maynard, 430
U.S. 705, 714 (1977)); see also Riley v. National Fed’n
of Blind of N.C., Inc., 487 U.S. 781, 796-97 (1988)
(“‘[F]reedom of speech’ * * * necessarily compris[es]
the decision of both what to say and what not to
say.”).
“[M]easures compelling speech are at least as
threatening” as those that restrict speech and may in
fact be even more constitutionally suspect because
they coerce free and independent individuals “into betraying their convictions.” Janus, 138 S. Ct. at 2464.
Indeed, this Court has suggested that “a law commanding ‘involuntary affirmation’ of objected-to beliefs would require ‘even more immediate and urgent
grounds’ than a law demanding silence.” Id. (quoting
West Virginia Bd. of Educ. v. Barnette, 319 U.S. 624,
633 (1943)). This is why state-compelled speech is
subject to strict scrutiny. Riley, 487 U.S. at 800-01.
Under these basic principles, it cannot seriously be
questioned that compelled representation—by which
the State of Maine puts words into Petitioner’s mouth
with which he disagrees—impinges upon his free
speech rights. Janus, 138 S. Ct. at 2460, 2469. Indeed, under a consistent and coherent application of
the First Amendment, such a regime is almost certainly unconstitutional. See id. at 2463 (“Compelling
individuals to mouth support for views they find objectionable violates that cardinal constitutional command [against coerced speech], and in most contexts,
any such effort would be universally condemned.”).
The Founders certainly would have thought so. Id. at
2471 (“[P]rominent members of the founding genera-

10
tion condemned laws requiring public employees to
affirm or support beliefs with which they disagreed.
As noted, Jefferson denounced compelled support for
such beliefs as ‘sinful and tyrannical.’”) (quoting A
Bill for Establishing Religious Freedom, in 2 Papers
of Thomas Jefferson 545 (J. Boyd ed. 1950)).
Given that speech about public-sector wages and
the governance of public institutions clearly implicates matters of substantial public concern, there is
no reason why a compelled-representation regime
should be treated any differently than a state law
“requir[ing] all residents to sign a document expressing support for a particular set of positions on controversial public issues—say, the platform of one of the
major political parties. No one, we trust, would seriously argue that the First Amendment permits this.”
Janus, 138 S. Ct. at 2464.
B. Compelled-representation laws impinge on the associational rights of objecting public employees.
Just as it protects free speech, the First Amendment also protects associational rights. “[I]mplicit in
the right to engage in activities protected by the First
Amendment” is “a corresponding right to associate
with others in pursuit of a wide variety of political,
social, economic, educational, religious, and cultural
ends.” Roberts v. United States Jaycees, 468 U.S. 609,
622 (1984). And as with the freedom of speech, “a corollary of the right to associate is the right not to associate.” California Democratic Party v. Jones, 530 U.S.
567, 574 (2000); see also Roberts, 468 U.S. at 623
(“Freedom of association * * * plainly presupposes a

11
freedom not to associate.”); Christian Legal Soc.
Chapter of the Univ. of Cal., Hastings Coll. of the Law
v. Martinez, 561 U.S. 661, 680 (2010) (same). Just as
with speech, “[t]he right to eschew association for expressive purposes is likewise protected.” Janus, 138
S. Ct. at 2463 (citing Roberts, 468 U.S. at 623).
In discussing the importance of the right to associate (or dissociate) with persons and groups of one’s
own choosing, this Court has emphasized that “[t]his
right is crucial in preventing the majority from imposing its views on groups that would rather express
other, perhaps unpopular, ideas.” Boy Scouts of Am.
v. Dale, 530 U.S. 640, 647-48 (2000). Thus, “the ability of like-minded individuals to associate for the
purpose of expressing commonly held views may not
be curtailed.” Knox v. Serv. Employees Int’l Union,
Local 1000, 567 U.S. 298, 309 (2012).
Compelled association is, at a minimum, subject to
“exacting scrutiny.” Janus, 138 S. Ct. at 2483 (“Our
later cases involving compelled speech and association have also employed exacting scrutiny, if not a
more demanding standard.”). Even under this marginally more forgiving standard, state laws compelling associations are “permissible only when they
serve a ‘compelling state interes[t] * * * that cannot
be achieved through means significantly less restrictive of associational freedoms.’” Knox, 567 U.S. at 310
(quoting Roberts, 468 U.S. at 623).
As with free speech rights, a compelledrepresentation regime impinges on associational
rights. Janus, 138 S. Ct. at 2478 (“[R]equir[ing] that
a union serve as exclusive bargaining agent for its
employees [is] a significant impingement on associa-

12
tional freedoms.”). By forcing Petitioner to associate
with a group to which he objects and with which he
does not wish to associate, it is virtually certain that
Maine law not only impinges on Petitioner’s free association rights—thus requiring at least some level of
heightened constitutional scrutiny—but in the end
actually violates the First Amendment. See id. (coerced association “would not be tolerated in other
contexts”). This is especially so given that compelled
representation harms both Petitioner’s speech and
association rights: “[F]orced associations that burden
protected speech are impermissible.” Pacific Gas &
Elec. Co. v. Public Util. Comm’n of Cal., 475 U.S. 1,
12 (1986) (plurality opinion).
II. Public-sector labor law should not be exempt from these fundamental First
Amendment principles.
Once any form of heightened constitutional scrutiny is applied to compelled representation, it is difficult, if not impossible, to imagine an adequate justification for such burdens on First Amendment freedoms. The rationales previously offered to justify differential treatment of labor-relations law—e.g., labor
peace and free rider problems—are no longer persuasive (if they ever were).
This Court in Janus overruled Abood v. Detroit
Board of Education, 431 U.S. 209 (1977), in light of
factual and legal developments that left it an outlier
among the Court’s First Amendment cases. The same
reasoning leads to the conclusion here that compelling public workers to accept union representation

13
with which they disagree runs afoul of ordinary First
Amendment principles.
In looking at the supposed state interests justifying infringements of the First Amendment in the labor-relations context, the Abood Court assumed that
conflict and disruption would occur if employees in a
unit were represented by more than one union, and
the Court predicted that “interunion rivalries” would
foster “dissension within the work force,” and the
employer could face “conflicting demands from different unions.” 431 U.S. at 220-21. And this Court has
merely assumed without explanation that “labor
peace” as described in Abood is a compelling state interest. See Janus, 138 S. Ct. at 2465. But given that
Abood has been overruled, this assumption should no
longer be taken for granted.
For example, there is no reason to believe today
that compelled exclusive representation remains necessary to achieve “labor peace.” Abood cited no evidence that “pandemonium * * * would result if agency
fees were not allowed,” and this Court concluded in
Janus that “it is now clear that Abood’s fears were
unfounded.” 138 S. Ct. at 2465. So too here. There is
no basis to retain the baseless assumption that forcing public employees to accept union representation
is necessary for “labor peace,” particularly in the context of public employees at a university. It is hard to
imagine, for example, members of the Humanities
Department walking a picket line with truncheons
and chains, ready to assault members of competing
unions or “scabs” that might dare defy a union call to
action. And even if one or more state university systems had an especially feisty economics department

14
enamored with old tropes of union violence—
Vermont, perhaps—surely the First Amendment requires particularized proof of such dangers to justify
each particular state law restricting speech and association in the name of such fears.
In any event, the purported interest in “labor
peace” previously relied on in Abood cannot be reconciled with First Amendment doctrine. The promotion
of labor peace in the context of regulating commerce,
see Abood, 431 U.S. at 220-21, is subject to rationalbasis review. It does not answer the question whether
such interest would satisfy the higher burden of strict
or exacting scrutiny for impingements on First
Amendment rights. The First Amendment does not
permit government to “substitute its judgment as to
how best to speak for that of speakers and listeners”
or to “sacrifice speech for efficiency.” Riley, 487 U.S.
at 791, 795.
Similarly, compelled-representation regimes cannot be justified as a way to prevent free-riding—i.e.,
preventing nonmembers from enjoying the benefits of
union representation without shouldering the costs.
As a logical matter, nonmembers have declined the
benefits of union representation and may not be compelled to subsidize union activities with which they
may disagree, so free riding is hardly at issue. Indeed, for employees like petitioner, who disagree with
the union’s speech and advocacy, compelled representation is the exact opposite of free riding: It compels
employees to accept speech and negotiations adverse
to their own view of their interests, and potentially to
expend considerable additional resources to counter
adverse speech by the Union that is attributed to the

15
dissenting employees. There is nothing “free” about a
regime that imposes such costs on dissenters.
In any event, this Court has made clear that
“avoiding free riders is not a compelling interest.”
Janus, 138 S. Ct. at 2466 (citing Knox, 567 U.S. at
311 (“[F]ree-rider arguments * * * are generally insufficient to overcome First Amendment objections.”)). Thus, preventing free-riders cannot justify
compelled-representation regimes.
In sum, the past rationales for sustaining compelled-representation regimes cannot justify the
harms those regimes impose on First Amendment
rights. There thus is no basis for exempting labor law
from the normal operation of First Amendment principles.
*****
Maine’s compelled-representation regime unquestionably and substantially impinges on Petitioner’s
free speech and associational rights. Although it is
almost certain that this regime violates the First
Amendment, how the Court would ultimately decide
that question is beside the point at this stage. The
point is that the Court should take up the question
and decide it; otherwise, “the constitutionality of
compelled representation will never receive meaningful review.” Pet. 13. Such a “serious[] impinge[ment]
on First Amendment rights * * * cannot be casually
allowed.” Janus, 138 S. Ct. at 2464.
CONCLUSION
For the foregoing reasons, this Court should grant
the Petition for a writ of certiorari.

16

Respectfully submitted,

ERIK S. JAFFE
(Counsel of Record)
GENE C. SCHAERR
JOSHUA J. PRINCE*
SCHAERR|JAFFE LLP
1717 K Street, NW, Suite 900
Washington, DC 20006
(202) 787-1060
ejaffe@schaerr-jaffe.com
Counsel for Amici Curiae
* Not admitted in DC
Dated: February 5, 2020

